CERTIFICATE OF SERVICE
NO. TBD
John McMahon et al.
Petitioner(s)
v.
Chemeheuvi Indian Tribe et al.
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the JOHN
MCMAHON ET AL. PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of
the same by USPS Priority mail, postage prepaid for delivery to the following addresses:
Lester John Marston
Rapport and Marston
405 W. Perkins Street
Ukiah, CA 95482
(707) 462-6846
marston1@pacbell.net
Counsel for Chemeheuvi Indian Tribe et al.

Lucas DeDeus

December 23, 2019
SCP Tracking: Coates-5900 Wilshire Blvd., Fl 12-Cover White

